HHS/OIG, Audit -"Costs Charged To Head Start Program Administered By Rockingham Community Action, Inc.,"(A-01-03-02500)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Costs Charged To Head Start Program Administered By Rockingham Community Action, Inc.," (A-01-03-02500)
December 9, 2003
Complete Text of Report is available in PDF format (342 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to evaluate the financial system and internal control structure for
tracking and reporting Head Start activity at Rockingham Community Action, Inc. (the Agency) for the three fiscal years
(FY) ending July 31, 2002.  Our analysis showed that (1) indirect costs recorded to the general ledger included errors
and unsupported transactions, and did not reflect offsets to the base (direct costs) for calculating indirect costs, (2)
Federal cash drawdowns for one of three fiscal years tested exceeded the approved budget, and (3) supporting documentation
could not be located for in-kind contributions.  The errors we identified were most attributed to high turnover and
a poorly executed accounting software conversion in FY 2000.  The Agency agreed with our findings.